symuee  (SOCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

FEDERAL REPUBLIC OF GERMANY, a foreign state,
and STIFTUNG PREUSSICHER KULTURBESITZ,
Petitioners,
v.
ALAN PHILIPP, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8979 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘ A
ieclon Boho No hex EC LM Qudraw- Ke, Ghi,
My Commission Expires Nov 24, 2020 ©

Notary Public Affiant

 

 

38663
